DOE F 1325.8
(08-93)
United States Government                                                                 Department of Energy


Memorandum
          DATE:   April 17,2008                                               Audit Report Number: OAS-L-08-09
   REPLY TO
    ATN OF:       IG-34 (A07GT038)
    SUNECT:       Report on Survey of "The Department's Controls over Leased Space in the National Capital
                  Area"
           TO:    Director, Office of Management, MA- 1


                  INTRODUCTION AND OBJECTIVE

                  The Department of Energy (Department) manages a sizeable inventory of real
                  property, including both owned and leased properties. The Office of Management
                  is responsible for the Department's real estate function, which includes acquisition
                  by lease or purchase, inventory, utilization surveys, tracking and disposal of real
                  property assets. In Fiscal Year 2007, the Department had approximately 10
                  million square feet of leased property at a cost of approximately $168 million.
                  This included approximately 2.3 million square feet in the Washington, D.C.
                  metropolitan area costing approximately $45.6 million.

                  In our reports on the Department of Energy's Warehouse Space (CR-B-97-01,
                  January 1997) and Management of the Department of Energy's Leased
                  Administrative Facilities (DOE/IG-0402, April 1997), we noted problems with the
                  Department's use of good business practices to manage its leased administrative
                  and storage facilities. The Department leased more space than necessary and
                  could not determine how much space would be needed in the future. The
                  Department's real estate management system did not include comprehensive site
                  development plans, an accurate Department-wide real property inventory database
                  and the appropriate level of coordination between offices responsible for leasing.
                  We conducted this review to determine if the Department was effectively
                  managing its leased facilities in the Washington, D.C. metropolitan area.

                  CONCLUSION AND OBSERVATIONS

                  Our review of administrative and storage facilities leased by the Department and
                  its Management and Operating Contractors at its Headquarters in the Washington
                  D.C. metropolitan area disclosed that progress has been made in minimizing
                  under-utilized space and using comprehensive property development plans. No
                  substantial vacant space was evident at any of the 15 locations we visited and the
                  facilities appeared to be efficiently utilized. Additionally, we were notified during
                  our review, that one of the leases we had selected for review, a leased storage
                  facility, was released in November 2007 because it was no longer needed. The
Department has also adopted the use of ten-year property development plans that
serve to identify under-utilized and excess property and provide specific disposal
arrangements.

The Department has also made progress in improving its centralized property
database and its coordination between responsible offices. Real estate specialists
reported that the Facilities Information Management System (FIMS) is now being
used as their primary source of real property information. Our tests corroborated
their assertions and indicated that, for the most part, FIMS is being maintained
accurately and up-to-date. Although we observed certain discrepancies, these
were a relatively small proportion of the population. We also noted greater
coordination between real estate specialists. At Headquarters, for example, the
Department's Office of Administration within the Office of Management is now
responsible for leasing all facilities.

No formal recommendations are being made in this report and a formal response
is not required. We appreciate the cooperation of your staff and the various
Departmental elements that provided information or assistance.




                                                         f " .
                                     Rickey R. Hass
                                     Assistant Inspector General
                                        for Environment, Science, and Corporate Audits
                                     Office of Inspector General

Attachment

cc:    Chief of Staff
       Office of Administration, MA-43
       Office of Engineering and Construction Management, MA-50
       Audit Liaison, MA1.l
       Audit Liaison, CF1.2
                                                                             Attachment

SCOPE AND METHODOLOGY

Our review was conducted between April 2007 and March 2008 at leased facilities in the
Washington D.C metropolitan area. To accomplish our objective we:

       Reviewed the Department of Energy's (Department) policies and procedures
       regarding leased properties and conducted interviews with Headquarters officials;

       Conducted walk-throughs and reviewed floor plans for a -judgmentally
                                                                  -          selected
       sample of General ~erGicesAdministration and contractor facilities leased during
       2007;

       Reviewed occupancy agreements and verified the accuracy of lease payments and
       square footage leased for each selected facility; and,

       Performed limited test work of the Facilities Information Management System
       computer-processed data and determined that we could rely on the data produced
       by the system.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives. Because our review was limited, it would not necessarily have disclosed all
internal control deficiencies that may have existed at the time of our evaluation. During
our review we assessed the Department's compliance with the Government Performance
and Results Act of 1993. We found that the Department established specific performance
measures. We did rely on computer processed data. We discussed the contents of this
letter with representatives of Office of Management on March 26,2008.
